         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Follow-up Audit on Term
Assignments of Contractor
Employees




DOE/IG-0890                                 July 2013
                                      Department of Energy
                                         Washington, DC 20585
                                                 July 2, 2013

MEMORANDUM FOR THE SECRETARY


FROM:                        Gregory H. Friedman
                             Inspector General

SUBJECT:                     INFORMATION: Audit Report on "Follow-up Audit on Term
                             Assignments of Contractor Employees"

BACKGROUND

The Department of Energy frequently assigns facility contractor personnel to the Washington,
DC, area on a temporary basis when program officials consider it necessary to obtain technical
expertise not available locally. Commonly referred to as term assignments, the estimated cost of
all such assignments for Fiscal Year (FY) 2012 was over $37 million, all of which was
reimbursed by the Department. In accordance with Department Order 350.2B, Federal officials
authorizing such assignments are required to ensure that costs for assignees are reasonable when
compared to other means of acquiring the necessary knowledge and experience.

Our 2005 report on Management of Facility Contractors Assigned to the Washington, DC Area
(DOE/IG-0710), identified issues related to term assignments such as insufficient justifications,
excessive moving and temporary living expenses for some employees, and, inconsistent
dislocation allowances 1 paid to employees by different contractors. The audit further identified
an average annual cost of $247,000 per employee, including employee salaries and other
expenses related to the term assignment. The Department pledged to address the concerns raised
in our 2005 report. Given the importance of fiscal responsibility in the current economic
climate, this audit was initiated to determine whether the Department had effectively
implemented the recommendations made in the prior audit and whether adequate controls were
in place for the management and oversight of term contractor employees assigned to the
Washington, DC, area.

RESULTS OF AUDIT

The Department's management of term assignments had improved since the 2005 report.
However, additional opportunities exist to enhance the effectiveness and reduce the cost of the
program. Specifically:

    •   Some allowances appeared excessive. For example, in about one-third of the cases
        reviewed, contractor term assignees received $230,000 in relocation payments as well as
        extended per diem allowances. We found this practice to be unreasonable, although its
        use was clarified in subsequent Department policy guidance.

1
 Dislocation allowances include temporary living allowances, shipment of household goods, and provisions of
premium locality pay.
                                                2


   •   Employee allowances varied significantly between the facility contractors providing term
       assignees. Notably, maximum annual per diem amounts authorized by contractors for
       each term assignment employee varied from $59,556 to $81,215, a difference of $21,659
       per individual.

   •   A cost analysis, specifically required by existing Department policy, had not been
       conducted to determine whether cost effective alternatives to term assignments were
       available.

The issues we discovered occurred, in part, because of inadequate controls and management
oversight. For example, the Department lacked adequate guidance for administering the program
in that it had not established complex-wide standards for term assignment allowances. From a
managerial perspective, the requirement for cost comparisons was not enforced. In addition,
actual costs were not tracked or reviewed to ensure that they were reasonable and in line with
original estimates.

As a result of these lapses, the Department lacked assurance that the cost of technical and
program support provided by the facility contractor personnel assigned to Washington was both
reasonable and necessary and that this approach was the most efficient, least expensive means of
obtaining needed skills. Furthermore, inconsistencies in the dislocation allowances authorized
by site contractors likely resulted in unreasonable and unnecessary costs to the Department. To
put this matter in some perspective, we found that the average annual cost per term assignee in
FY 2011 for the five sites reviewed was over $306,000, an increase of approximately $59,000
since our 2005 report.

During FY 2011, the National Nuclear Security Administration (NNSA) took action to improve
controls over term assignments. NNSA managed sites are now required to adhere to an NNSA
Supplemental Directive that clarifies the amounts and types of allowances permitted for
assignees. Further, during the latter stages of our audit field work and subsequent to our
May 2012 Management Alert on Extended Term Assignments at Princeton Plasma Physical
Laboratory (DOE/IG-0864), the Department issued an Acquisition Letter on Contractor
Domestic Extended Personnel Assignments. This policy set up many of the same cost
restrictions that are in NNSA's Supplemental Directive. We noted that had all of the sites
included in our review consistently applied per diem and relocation allowances limited to the
amounts allowed by these recent directives, the Department could have reduced costs by nearly
$500,000 annually for just the individuals included in our audit.

Controlling costs and conserving taxpayer-provided resources is especially critical during these
tight economic times. As such, we have made several recommendation designed to aid the
Department in reducing its support costs for contractor assignees to the Washington, DC, area.

MANAGEMENT COMMENTS

Management concurred with the report's recommendations and identified actions it had taken or
planned to address our recommendations and to improve management of term assignments to the
Washington, DC, area. Management comments are included in their entirety in Appendix 3.

Attachment
                                            3


cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
      Acting Under Secretary for Nuclear Security
      Chief of Staff
      Director, Office of Science
      Director, Office of Management
REPORT ON FOLLOW-UP AUDIT ON TERM ASSIGNMENTS OF
CONTRACTOR EMPLOYEES


TABLE OF
CONTENTS

Term Assignments of Contactor Employees

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................4

Management Reaction and Auditor Comments ...............................................................................5

Appendix

1. Objective, Scope and Methodology ...........................................................................................6

2. Prior Reports ..............................................................................................................................8

3. Management Comments ..........................................................................................................10
FOLLOW-UP AUDIT ON TERM ASSIGNMENTS OF CONTRACTOR
EMPLOYEES


Term Assignments of Contractors

To its credit, the Department of Energy (Department) took actions to correct some of the issues
identified in our 2005 report, Management of Facility Contractors Assigned to the Washington,
DC Area (DOE/IG-0710, November 2005). In May 2011, the Department issued Department
Order 350.2B, Use of Management and Operating or Other Facility Management Contractor
Employees for Services to DOE in the Washington, DC Area, requiring program offices to,
among other things, identify the number of term assignments needed each year. Organizations
were required to develop staffing plans and justify the need for each assignment. To supplement
Department Order 350.2B, the National Nuclear Security Administration (NNSA) issued
Supplemental Directive 350.2 to ensure that NNSA Program Offices consistently evaluated the
allowability, reasonableness and allocability of costs for all individuals on assignment.
Furthermore, in October 2012, during our audit, the Department took action to improve this
program by issuing a new Acquisition Letter on Contractor Domestic Extended Personnel
Assignments. This new Acquisition Letter provides further guidance on dislocation allowances
for these assignments. The Department also took action to discontinue dislocation
reimbursements, funds paid to compensate assignees for travel and relocation to the new duty
station when the term assignment exceeded the 3-year limit established by Department Order
350.2B.

Management of Term Assignments

While the Department's management of term assignments has improved since the issuance of our
2005 report, additional action is needed. Based on our review of the 96 contractor employees
from five Department laboratories that were assigned to the Washington, DC area, for Fiscal
Year (FY) 2011, we determined that many of the problems disclosed in our previous report
persisted. Specifically, we found that some dislocation allowances appeared to be excessive and
continued to vary significantly between the laboratory contractors providing term assignees. We
also found that cost comparisons and alternatives analyses were not thoroughly performed.

                               Payment of Dislocation Allowances

We found that some dislocation allowances paid to employees on term assignment to the
Washington, DC, area appeared to be excessive. Specifically, our test of relocation costs and per
diem allowances at five sites revealed:

    •    Twenty-seven instances in which site contractors paid a total of over $230,000 in
         relocation allowances to employees temporarily assigned to the Washington, DC, area
         and also paid extended per diem allowances.

    •    Twenty-five instances in which employees on term assignment were provided a total of
         over $27,000 in per diem allowances, including lodging for business travel from
         Washington, DC, to their permanent duty station at the same time they had received per
         diem for their temporary assignment to Washington, DC.

Page 1                                                                        Details of Finding
    •    Fourteen instances, totaling over $61,000, in which contractors had paid employees on
         term assignment per diem allowances that exceeded the sites' established per diem limits.

Relocation allowances for the shipment of household goods, travel of family members,
temporary storage of property, and property management services were paid to temporarily
assigned employees, even though some employees were also paid extended per diem for these
assignments. For example, in one instance, an individual received over $37,000 to relocate in
July and August 2011, and also received per diem of over $65,000 during the year. Five other
term contractors received over $2,100 for trips to their permanent duty stations, while also
receiving extended per diem for their stay in the Washington, DC, area. In addition, we noted
that while each of the sites had policies that included limits on the amount of per diem
employees on assignment were allowed to be paid, three sites either did not always follow their
own policies or at times used incorrect per diem rates. Consequently, these sites paid per diem
allowances that exceeded their established limits.

Further, the five sites included in our review had authorized different dislocation allowances for
employees on term assignment, resulting in a wide range of annual dislocation costs between
sites. For example, in FY 2011, Sandia National Laboratories (Sandia) authorized dislocation
allowance payments per individual up to $81,215, while Pacific Northwest National Laboratory
(Pacific Northwest) authorized up to $59,556, a difference of more than $21,000. We observed
that two sites paid employees-on-assignment differing percentages of the General Services
Administration's (GSA) approved per diem rate, which includes lodging, meals and incidental
expenses. The three remaining sites paid assigned employees differing percentages of only the
GSA-approved lodging rates. Additionally, two sites also included compensation in their per
diem payments to offset taxes that were applied to the employee's per diem. For instance,
Pacific Northwest paid its term assignment employees 85 percent of lodging, while Sandia
compensated 55 percent of lodging, meals and incidental expenses, plus compensation to offset
taxes on per diem. We also found that three of the five sites reviewed provided more than half of
their combined term assignees with a cost of living adjustment of approximately 10 percent of
their annual salary base. Officials at one of the sites stated that the salary adjustment was
provided because the term assignees took on additional responsibilities.

                               Cost Comparisons and Alternatives

Programs were not able to demonstrate in writing that required cost comparisons had been
performed. Department Order 350.2B states that sponsors must determine in writing, for each
assignment, that "Technical expertise or experience critical to the program is neither available
within the program or site office and costs are reasonable when compared to other types of
contracts." The majority of the justifications we reviewed described the need for the assignment
and contained information relating to potential alternatives and cost justifications. However, the
information provided was vague and did not provide specific examples of alternatives evaluated
or show calculated cost alternatives to prove that the term assignment was the most efficient
means of obtaining the required skills and knowledge. For example, at one site we found several
assignees whose justifications had nearly identical language. These justifications stated that the
program had made a considerable investment to develop a Washington, DC-based, analytical



Page 2                                                                        Details of Finding
capability provided by the site and finding adequate substitutes with the appropriate technical
expertise would take time and resources. Program officials were unable to provide any
additional information to demonstrate in writing what alternatives were considered and,
comparatively, how costs were reasonable. While some program officials stated they conducted
cost comparisons and looked for alternatives, they did not document the results of their analyses,
as required by Department Order 350.2B. In addition, some program officials informed us that
they did not always conduct cost comparisons.

Guidance, Oversight and Monitoring

These problems occurred, in part, because the Department did not provide adequate and timely
guidance to effectively control dislocation costs. In addition, the Department did not provide
sufficient oversight to ensure cost comparisons were performed and alternatives were considered.
Furthermore, the facility contractor database used by program officials to monitor term
assignments was incomplete, inaccurate, and did not track the actual costs of term assignments.

                                            Guidance

The Department had not provided adequate and timely guidance to effectively control dislocation
allowances associated with contractor employee term assignments. Department Order 350.2B
details requirements for the written justification of contractor term assignments, but provides
only general guidance on managing dislocation costs associated with these assignments. In
contrast, both NNSA's recently issued Supplemental Directive, which was implemented after the
period covered by our audit, and the Department's Acquisition Letter on Contractor Domestic
Extended Personnel Assignments, issued during the course of our audit in October 2012, include
specific standards to assist its program offices in evaluating dislocation allowances. For
instance, the Supplemental Directive requires term assignees to be reimbursed either as a
Temporary Change of Station or Extended Travel Duty. Specific guidance within these two term
assignment categories limits the assignee to receive either temporary relocation payments or
extended per diem, but not both. In Temporary Change of Station status, the employee is
considered temporarily relocated. Relocation expenses are allowable and payments for per diem
and personal travel to the employee's home location are unallowable. In Extended Travel Duty
status, the employee is considered in travel status. Reduced per diem payments (55 percent of
the GSA rate for Washington, DC) are allowable and payments for relocation expenses and per
diem for employee trips home are unallowable. We believe that many of the issues we observed
would be corrected if these new policies are fully implemented.

                                            Oversight

In addition, the Department did not provide sufficient oversight to ensure cost comparisons were
performed and alternatives were considered, as required by Department Order 350.2B.
Specifically, program office review and authorization of term assignment justifications did not
include a detailed review of cost comparisons to ensure that they were properly performed and
alternatives to contractor term assignments were given reasonable consideration. Thus, program
officials could not establish that the term assignment was the most efficient means of obtaining
the required skills and knowledge.



Page 3                                                                         Details of Finding
                                       Program Monitoring

Furthermore, the Office of Management's Department Management and Tracking System
(DMATS), a tool used by program officials to monitor term assignments, was incomplete,
inaccurate and did not track the actual costs of term assignments. Specifically, our review of
DMATS as of February 29, 2012, disclosed that 9 term assignments were inappropriately
included in the database and 41 were missing. An inaccurate and incomplete data source
increases the risk that justifications for all term assignments are not completed and assignment
lengths are not tracked. Additionally, DMATS only tracked the estimated monthly cost for each
term assignment, and did not track actual costs to ensure that costs were reasonable and in line
with original estimates.

Opportunities for Improvement

Without improvements in the administration of term assignments, Department management
cannot be assured that it is making the most cost effective use of its limited resources.
Specifically, in the absence of effective cost comparisons and full consideration of alternatives to
contractor term assignments, the Department is at risk of using term assignments when more
efficient, less expensive means of obtaining needed skills and knowledge may be available.
Furthermore, inconsistencies in the dislocation allowances authorized by site contractors likely
resulted in unreasonable and unnecessary costs to the Department. Maximum annual per diem
amounts authorized by contractors varied significantly, ranging from $59,556 to $81,215, a
difference of $21,659 per term assignment employee. In FY 2011, had sites consistently applied
per diem and relocation allowances limited to the amounts allowed by the recently issued NNSA
Supplemental Directive and the Department's Acquisition Letter, the Department would have
reduced costs by nearly $500,000 for just the individuals included in our audit.

RECOMMENDATIONS

To strengthen controls over facility contractor term assignments to the Washington, DC, area, we
recommend that the Director, Contract and Financial Assistance Policy, in conjunction with the
NNSA Principal Deputy Administrator and cognizant program secretarial officers:

   1. Ensure complete and timely implementation Department-wide, of NNSA's Supplemental
      Directive 350.2 and the Department's Acquisition Letter on Contractor Domestic
      Extended Personnel Assignments for evaluating the allowability, reasonableness, and
      allocability of dislocation allowances provided to term assignees by the Department's
      facility contractors; and

   2. Improve the term assignment tracking system's accuracy and capability to track the
      length and actual cost of assignments.




Page 4                                                                        Recommendations
We further recommend that the NNSA Principal Deputy Administrator and cognizant program
secretarial officers:

   3. Ensure that cost comparisons are sufficient to properly determine reasonableness of costs
      and availability of alternate sources.

MANAGEMENT REACTION

Department and NNSA management generally concurred with the report's recommendations.
The Office of Acquisition and Project Management agreed the Department needs to maintain
control over term assignments to Washington, DC, and stated that it will redistribute the
Acquisition Letter to authorized users of the DMATS to ensure organizational cognizance and
required use of the guidance. It also agreed that DMATS accuracy needs improvement and that
it will initiate quarterly DMATS notifications to ensure accuracy of records. However, the
Office of Acquisition and Project Management did not agree that "active" records should or can
include actual length and cost data.

NNSA noted that it has implemented the NNSA Supplemental Directive 350.2 and the
Department's Acquisition Letter on Contractor Domestic Extended Personnel Assignments into
all NNSA current management and operating contracts. In addition, NNSA agrees that
information in DMATS can be improved and will support the Department in their effort to
enhance the system. In the interim, NNSA has created a requirement in the Supplemental
Directive directing management and operating contractors to complete and submit an annual
report detailing the costs for all assignments to the Washington, DC, area, including the actual
cost of previous fiscal year assignments. Finally, NNSA felt that a qualifying sentence should be
added to clarify the difference between dislocation costs at Sandia and Pacific Northwest.

AUDITOR COMMENTS

Management's corrective actions, planned and taken, are responsive to our recommendations. As
to the areas in which the Office of Acquisition and Project Management expressed concern, we
determined that sponsors can calculate the actual cost of each term assignment for the fiscal year
and input that data into DMATS prior to fiscal year-end closeout. Because estimated costs for
each assignment are already posted to DMATS, this would allow the organizations to see how
actual costs compare to estimated costs each fiscal year. As previously noted, NNSA has already
created a requirement for their contractors to complete and submit an annual report detailing the
costs for all assignments to the Washington, DC, area, including the actual cost of previous fiscal
year assignments. With regard to the sentence clarification suggested by NNSA, our report
already states that Sandia and Pacific Northwest include different components in their authorized
dislocation costs, which accounts for the differences in costs between the sites. Thus, we do not
believe additional language is necessary. Management's comments are included in their entirety
in Appendix 3.




Page 5                                                    Recommendations and Comments
Appendix 1

OBJECTIVE

To determine whether the Department of Energy (Department) has effectively implemented the
recommendations made in the prior audit and whether adequate controls are in place for the
management and oversight of term contractor employees assigned to the Washington, DC, area.

SCOPE

This audit was conducted between January 2012 and June 2013, and included all term
contractors assigned to the Washington, DC, area from Sandia National Laboratories, Pacific
Northwest National Laboratory, Argonne National Laboratory, Idaho National Laboratory, and
Los Alamos National Laboratory in Fiscal Year (FY) 2011 and FY 2012.

METHODOLOGY

To accomplish our audit objective, we:

   •   Judgmentally selected five of the nine Department sites listed in DMATS in February
       2012, for review of their term assignments, based on their greater number of assignments.
       Because we reviewed a judgmental sample, the results are not projectable and are limited
       to the contractor term assignments for those sites selected.

   •   Reviewed applicable laws and regulations pertaining to facility contractor assignments to
       the Washington, DC, area.

   •   Reviewed prior reports issued by the Office of Inspector General.

   •   Reviewed program staffing plans and discussed the staffing plans with program offices.

   •   Obtained listings of current assignments to the Washington, DC, area from five of the
       Department's laboratories and compared those listings to the Department's Management
       and Tracking System.

   •   Obtained and reviewed policies and supporting documents related to dislocation
       allowances provided to selected employees at the five laboratories.

   •   Obtained and reviewed assignment justifications and cost analyses for technical
       employees at five sites.

   •   Discussed processes for assigning facility contractors to the Washington, DC, area with
       program officials and contractors.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Page 6                                                    Objective, Scope and Methodology
Appendix 1 (continued)

based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
tests of controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed compliance with the GPRA Modernization Act of 2010
and found that performance measures had not been established. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We did not rely on computer-processed information to achieve our audit
objective.

Management waived an exit conference on June 12, 2013.




Page 7                                                    Objective, Scope and Methodology
Appendix 2

                                     PRIOR REPORTS


  •   Audit Report on Management Alert on "Extended Assignments at Princeton Plasma
      Physics Laboratory (DOE/IG-0864, May 2012). We found that the Department of
      Energy (Department) reimbursed Princeton Plasma Physics Laboratory $1.04 million for
      lodging subsidies incurred by two employees who were on extended assignments – 14
      years in one case and 9 years in the other. While existing Laboratory policy permitted
      temporary assignments, the duration of these particular assignments appeared to be
      excessive and inconsistent with Department policies that we used for benchmarking
      purposes. Consequently, we considered these costs to be unreasonable, and, as a result,
      we questioned their allowability.

  •   Audit Report on Management of Facility Contractors Assigned to the Washington D.C.
      Area (DOE/IG-0710, November 2005). Although required by Department Order 350.2A,
      Use of Management and Operating or Other Facility Management Contractor Employees
      for Services to DOE in the Washington, DC Area, justifications as to the need for and
      duration of assignments had not been prepared or were inadequate for the 30 employees
      included in our sample, assignments were routinely extended beyond the one-year
      threshold, and moving and other temporary living allowances paid to assignees varied
      significantly from contractor to contractor and, in some cases, appeared
      excessive. Management committed to changes needed to improve the quality and accuracy
      of reporting and initiated action to improve oversight and approval controls.

  •   Audit Report on Audit of Facility Contractor Employee Assignments by Energy
      Efficiency and Renewable Energy (OAS-L-04-07, December 2003). The Office of
      Energy Efficiency and Renewable Energy (EERE) and the National Renewable Energy
      Laboratory (NREL) had not followed requirements for assigning facility contractor
      employees to the Washington, DC, area. Specifically, EERE assigned seven facility
      contractor employees to Headquarters, but did not notify the Department or include them
      in the facility contractor database; and despite strict prohibitions to the contrary, NREL
      procured the technical services of a facility contractor employee on EERE's behalf and
      assigned the individual to Washington, DC. By not ensuring that the Department was
      fully informed about the number of contractor employees assigned to Headquarters,
      EERE placed the Department at risk of exceeding the Congressional ceiling on the
      assignment of such employees.

  •   Audit Report on Follow-Up Audit on the Department's Management of Field Contractor
      Employees Assigned to Headquarters and Other Federal Agencies (OAS-L-03-03,
      December 2002). The Department had improved its management and use of field
      contractors assigned to Headquarters and had taken corrective actions that satisfy the
      intent of the recommendations outlined in the prior audit reports. However, the report
      noted that enhancements to the Department's Facility Contractor Employee Database
      were needed to make it more useful to Headquarters Program elements. Specifically, the
      database lacked the data needed to ascertain total program funding requirements. For



Page 8                                                                           Prior Reports
Appendix 2 (continued)


      example, the database could not identify funding levels for employees that were funded
      by multiple programs; instead, multi-funded employees were recorded under only one
      sponsor.

  •   Audit Report on Audit of the Department of Energy's Management of Field Contractor
      Employees Assigned to Headquarters and Other Federal Agencies (DOE/IG-0414,
      December 1997). The Department did not effectively manage the use of field contractor
      employees assigned to Headquarters and other Federal agencies. Specifically, the
      Department was unable to identify all contractor employees assigned to the Washington,
      DC area or determine the total cost of maintaining them. Additionally, several of the
      Department's contractors had assigned their employees to work in other agencies without
      receiving full reimbursement for their services. The audit further identified over 800 field
      contractor employees working in the Washington, DC, area, while Procurement's
      database reported just over 400. The report also noted that the Department did not fully
      implement the corrective actions it agreed to in the prior audit report.

  •   Audit Report on Audit of The Department of Energy Program Offices' Use of
      Management and Operating Contractor Employees (DOE/IG-0392, July 1996). The
      Department did not effectively manage the use of field contractor employees assigned to
      Headquarters and other Federal agencies. Specifically, 378 laboratory employees were
      assigned to the Washington, DC, area for periods of 6 months or longer. In addition,
      these employees worked on projects that have the potential to impact their laboratory
      employers. As a result, laboratory contract employees were involved in programmatic
      and policy areas in which real or perceived conflicts may exist between their official
      duties and the tasks they assume when serving the Department program offices. Further,
      the Department may be augmenting its Federal workforce in a way that might not be
      cost-effective and consistent with its staffing objectives.




Page 9                                                                             Prior Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
                                                                    IG Report No. DOE/IG-0890

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
